Information maintained by the Legislative Reference Bureau
Updating the database of the Illinois Compiled Statutes (ILCS) is an ongoing process. Recent laws may not yet be
included in the ILCS database, but they are found on this site as Public Acts soon after they become law. For information
concerning the relationship between statutes and Public Acts, refer to the Guide.
Because the statute database is maintained primarily for legislative drafting purposes, statutory changes are sometimes
included in the statute database before they take effect. If the source note at the end of a Section of the statutes includes a
Public Act that has not yet taken effect, the version of the law that is currently in effect may have already been removed
from the database and you should refer to that Public Act to see the changes made to the current law.

PUBLIC SAFETY
(430 ILCS 66/) Firearm Concealed Carry Act.
(430 ILCS 66/1)
Sec. 1. Short title. This Act may be cited as the Firearm
Concealed Carry Act.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/5)
Sec. 5. Definitions. As used in this Act:
"Applicant" means a person who is applying for a license to
carry a concealed firearm under this Act.
"Board" means the Concealed Carry Licensing Review Board.
"Concealed firearm" means a loaded or unloaded handgun
carried on or about a person completely or mostly concealed from
view of the public or on or about a person within a vehicle.
"Department" means the Department of State Police.
"Director" means the Director of State Police.
"Handgun" means any device which is designed to expel a
projectile or projectiles by the action of an explosion,
expansion of gas, or escape of gas that is designed to be held
and fired by the use of a single hand. "Handgun" does not
include:
(1) a stun gun or taser;
(2) a machine gun as defined in item (i) of paragraph
(7) of subsection (a) of Section 24-1 of the Criminal Code
of 2012;
(3) a short-barreled rifle or shotgun as defined in
item (ii) of paragraph (7) of subsection (a) of Section 241 of the Criminal Code of 2012; or
(4) any pneumatic gun, spring gun, paint ball gun, or
B-B gun which expels a single globular projectile not
exceeding .18 inch in diameter, or which has a maximum
muzzle velocity of less than 700 feet per second, or which
expels breakable paint balls containing washable marking
colors.
"Law enforcement agency" means any federal, State, or local
law enforcement agency, including offices of State's Attorneys
and the Office of the Attorney General.
"License" means a license issued by the Department of State
Police to carry a concealed handgun.
"Licensee" means a person issued a license to carry a
concealed handgun.
"Municipality" has the meaning ascribed to it in Section 1
of Article VII of the Illinois Constitution.

"Unit of local government" has the meaning ascribed to it in
Section 1 of Article VII of the Illinois Constitution.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/10)
Sec. 10. Issuance of licenses to carry a concealed firearm.
(a) The Department shall issue a license to carry a
concealed firearm under this Act to an applicant who:
(1) meets the qualifications of Section 25 of this
Act;
(2) has provided the application and documentation
required in Section 30 of this Act;
(3) has submitted the requisite fees; and
(4) does not pose a danger to himself, herself, or
others, or a threat to public safety as determined by the
Concealed Carry Licensing Review Board in accordance with
Section 20.
(b) The Department shall issue a renewal, corrected, or
duplicate license as provided in this Act.
(c) A license shall be valid throughout the State for a
period of 5 years from the date of issuance. A license shall
permit the licensee to:
(1) carry a loaded or unloaded concealed firearm,
fully concealed or partially concealed, on or about his or
her person; and
(2) keep or carry a loaded or unloaded concealed
firearm on or about his or her person within a vehicle.
(d) The Department shall make applications for a license
available no later than 180 days after the effective date of
this Act. The Department shall establish rules for the
availability and submission of applications in accordance with
this Act.
(e) An application for a license submitted to the Department
that contains all the information and materials required by this
Act, including the requisite fee, shall be deemed completed.
Except as otherwise provided in this Act, no later than 90 days
after receipt of a completed application, the Department shall
issue or deny the applicant a license.
(f) The Department shall deny the applicant a license if the
applicant fails to meet the requirements under this Act or the
Department receives a determination from the Board that the
applicant is ineligible for a license. The Department must
notify the applicant stating the grounds for the denial. The
notice of denial must inform the applicant of his or her right
to an appeal through administrative and judicial review.
(g) A licensee shall possess a license at all times the
licensee carries a concealed firearm except:
(1) when the licensee is carrying or possessing a
concealed firearm on his or her land or in his or her
abode, legal dwelling, or fixed place of business, or on
the land or in the legal dwelling of another person as an
invitee with that person's permission;
(2) when the person is authorized to carry a firearm
under Section 24-2 of the Criminal Code of 2012, except
subsection (a-5) of that Section; or
(3) when the handgun is broken down in a

non-functioning state, is not immediately accessible, or is
unloaded and enclosed in a case.
(h) If an officer of a law enforcement agency initiates an
investigative stop, including but not limited to a traffic stop,
of a licensee or a non-resident carrying a concealed firearm
under subsection (e) of Section 40 of this Act, upon the request
of the officer the licensee or non-resident shall disclose to
the officer that he or she is in possession of a concealed
firearm under this Act, or present the license upon the request
of the officer if he or she is a licensee or present upon the
request of the officer evidence under paragraph (2) of
subsection (e) of Section 40 of this Act that he or she is a
non-resident qualified to carry under that subsection. The
disclosure requirement under this subsection (h) is satisfied if
the licensee presents his or her license to the officer or the
non-resident presents to the officer evidence under paragraph
(2) of subsection (e) of Section 40 of this Act that he or she
is qualified to carry under that subsection. Upon the request of
the officer, the licensee or non-resident shall also identify
the location of the concealed firearm and permit the officer to
safely secure the firearm for the duration of the investigative
stop. During a traffic stop, any passenger within the vehicle
who is a licensee or a non-resident carrying under subsection
(e) of Section 40 of this Act must comply with the requirements
of this subsection (h).
(h-1) If a licensee carrying a firearm or a non-resident
carrying a firearm in a vehicle under subsection (e) of Section
40 of this Act is contacted by a law enforcement officer or
emergency services personnel, the law enforcement officer or
emergency services personnel may secure the firearm or direct
that it be secured during the duration of the contact if the law
enforcement officer or emergency services personnel determines
that it is necessary for the safety of any person present,
including the law enforcement officer or emergency services
personnel. The licensee or nonresident shall submit to the order
to secure the firearm. When the law enforcement officer or
emergency services personnel have determined that the licensee
or non-resident is not a threat to the safety of any person
present, including the law enforcement officer or emergency
services personnel, and if the licensee or non-resident is
physically and mentally capable of possessing the firearm, the
law enforcement officer or emergency services personnel shall
return the firearm to the licensee or non-resident before
releasing him or her from the scene and breaking contact. If the
licensee or non-resident is transported for treatment to another
location, the firearm shall be turned over to any peace officer.
The peace officer shall provide a receipt which includes the
make, model, caliber, and serial number of the firearm.
(i) The Department shall maintain a database of license
applicants and licensees. The database shall be available to all
federal, State, and local law enforcement agencies, State's
Attorneys, the Attorney General, and authorized court personnel.
Within 180 days after the effective date of this Act, the
database shall be searchable and provide all information
included in the application, including the applicant's previous
addresses within the 10 years prior to the license application
and any information related to violations of this Act. No law

enforcement agency, State's Attorney, Attorney General, or
member or staff of the judiciary shall provide any information
to a requester who is not entitled to it by law.
(j) No later than 10 days after receipt of a completed
application, the Department shall enter the relevant information
about the applicant into the database under subsection (i) of
this Section which is accessible by law enforcement agencies.
(Source: P.A. 98-63, eff. 7-9-13; 98-600, eff. 12-6-13; 99-29,
eff. 7-10-15.)
(430 ILCS 66/15)
Sec. 15. Objections by law enforcement agencies.
(a) Any law enforcement agency may submit an objection to a
license applicant based upon a reasonable suspicion that the
applicant is a danger to himself or herself or others, or a
threat to public safety. The objection shall be made by the
chief law enforcement officer of the law enforcement agency, or
his or her designee, and must include any information relevant
to the objection. If a law enforcement agency submits an
objection within 30 days after the entry of an applicant into
the database, the Department shall submit the objection and all
information available to the Board under State and federal law
related to the application to the Board within 10 days of
completing all necessary background checks.
(b) If an applicant has 5 or more arrests for any reason,
that have been entered into the Criminal History Records
Information (CHRI) System, within the 7 years preceding the date
of application for a license, or has 3 or more arrests within
the 7 years preceding the date of application for a license for
any combination of gang-related offenses, the Department shall
object and submit the applicant's arrest record to the extent
the Board is allowed to receive that information under State and
federal law, the application materials, and any additional
information submitted by a law enforcement agency to the Board.
For purposes of this subsection, "gang-related offense" is an
offense described in Section 12-6.4, Section 24-1.8, Section 255, Section 33-4, or Section 33G-4, or in paragraph (1) of
subsection (a) of Section 12-6.2, paragraph (2) of subsection
(b) of Section 16-30, paragraph (2) of subsection (b) of Section
31-4, or item (iii) of paragraph (1.5) of subsection (i) of
Section 48-1 of the Criminal Code of 2012.
(c) The referral of an objection under this Section to the
Board shall toll the 90-day period for the Department to issue
or deny the applicant a license under subsection (e) of Section
10 of this Act, during the period of review and until the Board
issues its decision.
(d) If no objection is made by a law enforcement agency or
the Department under this Section, the Department shall process
the application in accordance with this Act.
(Source: P.A. 98-63, eff. 7-9-13; 98-600, eff. 12-6-13.)
(430 ILCS 66/20)
Sec. 20. Concealed Carry Licensing Review Board.
(a) There is hereby created within the Department of State
Police a Concealed Carry Licensing Review Board to consider any
objection to an applicant's eligibility to obtain a license

under this Act submitted by a law enforcement agency or the
Department under Section 15 of this Act. The Board shall consist
of 7 commissioners to be appointed by the Governor, with the
advice and consent of the Senate, with 3 commissioners residing
within the First Judicial District and one commissioner residing
within each of the 4 remaining Judicial Districts. No more than
4 commissioners shall be members of the same political party.
The
Governor
shall
designate
one
commissioner
as
the
Chairperson. The Board shall consist of:
(1) one commissioner with at least 5 years of service
as a federal judge;
(2) 2 commissioners with at least 5 years of
experience serving as an attorney with the United States
Department of Justice;
(3) 3 commissioners with at least 5 years of
experience
as
a
federal
agent
or
employee
with
investigative experience or duties related to criminal
justice under the United States Department of Justice, Drug
Enforcement
Administration,
Department
of
Homeland
Security, or Federal Bureau of Investigation; and
(4) one member with at least 5 years of experience as
a
licensed
physician
or
clinical
psychologist
with
expertise in the diagnosis and treatment of mental illness.
(b) The initial terms of the commissioners shall end on
January 12, 2015. Thereafter, the commissioners shall hold
office for 4 years, with terms expiring on the second Monday in
January of the fourth year. Commissioners may be reappointed.
Vacancies in the office of commissioner shall be filled in the
same manner as the original appointment, for the remainder of
the unexpired term. The Governor may remove a commissioner for
incompetence, neglect of duty, malfeasance, or inability to
serve. Commissioners shall receive compensation in an amount
equal to the compensation of members of the Executive Ethics
Commission and may be reimbursed for reasonable expenses
actually incurred in the performance of their Board duties, from
funds appropriated for that purpose.
(c) The Board shall meet at the call of the chairperson as
often as necessary to consider objections to applications for a
license under this Act. If necessary to ensure the participation
of a commissioner, the Board shall allow a commissioner to
participate in a Board meeting by electronic communication. Any
commissioner participating electronically shall be deemed
present for purposes of establishing a quorum and voting.
(d) The Board shall adopt rules for the review of objections
and the conduct of hearings. The Board shall maintain a record
of its decisions and all materials considered in making its
decisions. All Board decisions and voting records shall be kept
confidential and all materials considered by the Board shall be
exempt from inspection except upon order of a court.
(e) In considering an objection of a law enforcement agency
or the Department, the Board shall review the materials received
with the objection from the law enforcement agency or the
Department. By a vote of at least 4 commissioners, the Board may
request additional information from the law enforcement agency,
Department, or the applicant, or the testimony of the law
enforcement agency, Department, or the applicant. The Board may
require that the applicant submit electronic fingerprints to the

Department for an updated background check where the Board
determines it lacks sufficient information to determine
eligibility. The Board may only consider information submitted
by the Department, a law enforcement agency, or the applicant.
The Board shall review each objection and determine by a
majority of commissioners whether an applicant is eligible for a
license.
(f) The Board shall issue a decision within 30 days of
receipt of the objection from the Department. However, the Board
need not issue a decision within 30 days if:
(1) the Board requests information from the
applicant,
including
but
not
limited
to
electronic
fingerprints to be submitted to the Department, in
accordance with subsection (e) of this Section, in which
case the Board shall make a decision within 30 days of
receipt of the required information from the applicant;
(2) the applicant agrees, in writing, to allow the
Board additional time to consider an objection; or
(3) the Board notifies the applicant and the
Department that the Board needs an additional 30 days to
issue a decision.
(g) If the Board determines by a preponderance of the
evidence that the applicant poses a danger to himself or herself
or others, or is a threat to public safety, then the Board shall
affirm the objection of the law enforcement agency or the
Department and shall notify the Department that the applicant is
ineligible for a license. If the Board does not determine by a
preponderance of the evidence that the applicant poses a danger
to himself or herself or others, or is a threat to public
safety, then the Board shall notify the Department that the
applicant is eligible for a license.
(h) Meetings of the Board shall not be subject to the Open
Meetings Act and records of the Board shall not be subject to
the Freedom of Information Act.
(i) The Board shall report monthly to the Governor and the
General Assembly on the number of objections received and
provide details of the circumstances in which the Board has
determined to deny licensure based on law enforcement or
Department objections under Section 15 of this Act. The report
shall not contain any identifying information about the
applicants.
(Source: P.A. 98-63, eff. 7-9-13; 98-600, eff. 12-6-13.)
(430 ILCS 66/25)
Sec. 25. Qualifications for a license.
The Department shall issue a license to an applicant
completing an application in accordance with Section 30 of this
Act if the person:
(1) is at least 21 years of age;
(2) has a currently valid Firearm Owner's
Identification Card and at the time of application meets
the requirements for the issuance of a Firearm Owner's
Identification Card and is not prohibited under the Firearm
Owners Identification Card Act or federal law from
possessing or receiving a firearm;
(3) has not been convicted or found guilty in this

State or in any other state of:
(A) a misdemeanor involving the use or threat of
physical force or violence to any person within the 5
years preceding the date of the license application; or
(B) 2 or more violations related to driving
while under the influence of alcohol, other drug or
drugs, intoxicating compound or compounds, or any
combination thereof, within the 5 years preceding the
date of the license application;
(4) is not the subject of a pending arrest warrant,
prosecution, or proceeding for an offense or action that
could lead to disqualification to own or possess a firearm;
(5) has not been in residential or court-ordered
treatment for alcoholism, alcohol detoxification, or drug
treatment within the 5 years immediately preceding the date
of the license application; and
(6) has completed firearms training and any
education component required under Section 75 of this Act.
(Source: P.A. 98-63, eff. 7-9-13; 98-756, eff. 7-16-14.)
(430 ILCS 66/30)
Sec. 30. Contents of license application.
(a) The license application shall be in writing, under
penalty of perjury, on a standard form adopted by the Department
and shall be accompanied by the documentation required in this
Section and the applicable fee. Each application form shall
include the following statement printed in bold type: "Warning:
Entering false information on this form is punishable as perjury
under Section 32-2 of the Criminal Code of 2012."
(b) The application shall contain the following:
(1) the applicant's name, current address, date and
year of birth, place of birth, height, weight, hair color,
eye color, maiden name or any other name the applicant has
used or identified with, and any address where the
applicant resided for more than 30 days within the 10 years
preceding the date of the license application;
(2) the applicant's valid driver's license number
or valid state identification card number;
(3) a waiver of the applicant's privacy and
confidentiality rights and privileges under all federal and
state laws, including those limiting access to juvenile
court, criminal justice, psychological, or psychiatric
records or records relating to any institutionalization of
the applicant, and an affirmative request that a person
having custody of any of these records provide it or
information concerning it to the Department. The waiver
only
applies
to
records
sought
in
connection
with
determining whether the applicant qualifies for a license
to carry a concealed firearm under this Act, or whether the
applicant remains in compliance with the Firearm Owners
Identification Card Act;
(4) an affirmation that the applicant possesses a
currently valid Firearm Owner's Identification Card and
card number if possessed or notice the applicant is
applying for a Firearm Owner's Identification Card in
conjunction with the license application;

(5) an affirmation that the applicant has not been
convicted or found guilty of:
(A) a felony;
(B) a misdemeanor involving the use or threat of
physical force or violence to any person within the 5
years preceding the date of the application; or
(C) 2 or more violations related to driving while
under the influence of alcohol, other drug or drugs,
intoxicating compound or compounds, or any combination
thereof, within the 5 years preceding the date of the
license application; and
(6) whether the applicant has failed a drug test for
a drug for which the applicant did not have a prescription,
within the previous year, and if so, the provider of the
test, the specific substance involved, and the date of the
test;
(7) written consent for the Department to review and
use the applicant's Illinois digital driver's license or
Illinois identification card photograph and signature;
(8) a full set of fingerprints submitted to the
Department in electronic format, provided the Department
may accept an application submitted without a set of
fingerprints in which case the Department shall be granted
30 days in addition to the 90 days provided under
subsection (e) of Section 10 of this Act to issue or deny a
license;
(9) a head and shoulder color photograph in a size
specified by the Department taken within the 30 days
preceding the date of the license application; and
(10) a photocopy of any certificates or other
evidence of compliance with the training requirements under
this Act.
(Source: P.A. 98-63, eff. 7-9-13; 99-29, eff. 7-10-15.)
(430 ILCS 66/35)
Sec. 35. Investigation of the applicant.
The Department shall conduct a background check of the
applicant to ensure compliance with the requirements of this Act
and all federal, State, and local laws. The background check
shall include a search of the following:
(1) the National Instant Criminal Background Check
System of the Federal Bureau of Investigation;
(2) all available state and local criminal history
record information files, including records of juvenile
adjudications;
(3) all available federal, state, and local records
regarding wanted persons;
(4) all available federal, state, and local records
of domestic violence restraining and protective orders;
(5) the files of the Department of Human Services
relating to mental health and developmental disabilities;
and
(6) all other available records of a federal, state,
or local agency or other public entity in any jurisdiction
likely to contain information relevant to whether the

applicant is prohibited from purchasing, possessing, or
carrying a firearm under federal, state, or local law.
Fingerprints collected under Section 30 shall be checked
against the Department of State Police and Federal Bureau of
Investigation criminal history record databases now and
hereafter filed. The Department shall charge applicants a fee
for conducting the criminal history records check, which shall
be deposited in the State Police Services Fund and shall not
exceed the actual cost of the records check.
(Source: P.A. 98-63, eff. 7-9-13; 98-756, eff. 7-16-14.)
(430 ILCS 66/40)
Sec. 40. Non-resident license applications.
(a) For the purposes of this Section, "non-resident" means a
person who has not resided within this State for more than 30
days and resides in another state or territory.
(b) The Department shall by rule allow for non-resident
license applications from any state or territory of the United
States with laws related to firearm ownership, possession, and
carrying, that are substantially similar to the requirements to
obtain a license under this Act.
(c) A resident of a state or territory approved by the
Department under subsection (b) of this Section may apply for a
non-resident license. The applicant shall apply to the
Department and must meet all of the qualifications established
in Section 25 of this Act, except for the Illinois residency
requirement in item (xiv) of paragraph (2) of subsection (a) of
Section 4 of the Firearm Owners Identification Card Act. The
applicant shall submit:
(1) the application and documentation required under
Section 30 of this Act and the applicable fee;
(2) a notarized document stating that the applicant:
(A) is eligible under federal law and the laws of
his or her state or territory of residence to own or
possess a firearm;
(B) if applicable, has a license or permit to
carry a firearm or concealed firearm issued by his or
her state or territory of residence and attach a copy of
the license or permit to the application;
(C) understands Illinois laws pertaining to the
possession and transport of firearms; and
(D) acknowledges that the applicant is subject to
the jurisdiction of the Department and Illinois courts
for any violation of this Act;
(3) a photocopy of any certificates or other evidence
of compliance with the training requirements under Section
75 of this Act; and
(4) a head and shoulder color photograph in a size
specified by the Department taken within the 30 days
preceding the date of the application.
(d) In lieu of an Illinois driver's license or Illinois
identification card, a non-resident applicant shall provide
similar documentation from his or her state or territory of
residence. In lieu of a valid Firearm Owner's Identification
Card, the applicant shall submit documentation and information
required by the Department to obtain a Firearm Owner's

Identification Card, including an affidavit that the nonresident meets the mental health standards to obtain a firearm
under Illinois law, and the Department shall ensure that the
applicant would meet the eligibility criteria to obtain a
Firearm Owner's Identification card if he or she was a resident
of this State.
(e) Nothing in this Act shall prohibit a non-resident from
transporting a concealed firearm within his or her vehicle in
Illinois, if the concealed firearm remains within his or her
vehicle and the non-resident:
(1) is not prohibited from owning or possessing a
firearm under federal law;
(2) is eligible to carry a firearm in public under
the laws of his or her state or territory of residence, as
evidenced by the possession of a concealed carry license or
permit issued by his or her state of residence, if
applicable; and
(3) is not in possession of a license under this Act.
If the non-resident leaves his or her vehicle unattended, he
or she shall store the firearm within a locked vehicle or locked
container within the vehicle in accordance with subsection (b)
of Section 65 of this Act.
(Source: P.A. 98-63, eff. 7-9-13; 98-600, eff. 12-6-13; 99-78,
eff. 7-20-15.)
(430 ILCS 66/45)
Sec. 45. Civil immunity; Board, employees, and agents. The
Board, Department, local law enforcement agency, or the
employees and agents of the Board, Department, or local law
enforcement agency participating in the licensing process under
this Act shall not be held liable for damages in any civil
action arising from alleged wrongful or improper granting,
denying, renewing, revoking, suspending, or failing to grant,
deny, renew, revoke, or suspend a license under this Act, except
for willful or wanton misconduct.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/50)
Sec. 50. License renewal.
(a) This subsection (a) applies through the 180th day
following the effective date of this amendatory Act of the 101st
General Assembly. Applications for renewal of a license shall be
made to the Department. A license shall be renewed for a period
of 5 years upon receipt of a completed renewal application,
completion of 3 hours of training required under Section 75 of
this Act, payment of the applicable renewal fee, and completion
of an investigation under Section 35 of this Act. The renewal
application shall contain the information required in Section 30
of this Act, except that the applicant need not resubmit a full
set of fingerprints.
(b) This subsection (b) applies on and after the 181st day
following the effective date of this amendatory Act of the 101st
General Assembly. Applications for renewal of a license shall be
made to the Department. A license shall be renewed for a period
of 5 years from the date of expiration on the applicant's
current license upon the receipt of a completed renewal

application, completion of 3 hours of training required under
Section 75 of this Act, payment of the applicable renewal fee,
and completion of an investigation under Section 35 of this Act.
The renewal application shall contain the information required
in Section 30 of this Act, except that the applicant need not
resubmit a full set of fingerprints.
(Source: P.A. 101-80, eff. 7-12-19.)
(430 ILCS 66/55)
Sec. 55. Change of address or name; lost, destroyed, or
stolen licenses.
(a) A licensee shall notify the Department within 30 days of
moving or changing residence or any change of name. The licensee
shall submit the requisite fee and the Department may require a
notarized statement that the licensee has changed his or her
residence or his or her name, including the prior and current
address or name and the date the applicant moved or changed his
or her name.
(b) A licensee shall notify the Department within 10 days of
discovering that a license has been lost, destroyed, or stolen.
A lost, destroyed, or stolen license is invalid. To request a
replacement license, the licensee shall submit:
(1) a notarized statement that the licensee no longer
possesses the license, and that it was lost, destroyed, or
stolen;
(2) if applicable, a copy of a police report stating
that the license was stolen; and
(3) the requisite fee.
(c) A violation of this Section is a petty offense with a
fine of $150 which shall be deposited into the Mental Health
Reporting Fund.
(Source: P.A. 98-63, eff. 7-9-13; 99-29, eff. 7-10-15.)
(430 ILCS 66/60)
Sec. 60. Fees.
(a) All fees collected under this Act shall be deposited as
provided in this Section. Application, renewal, and replacement
fees shall be non-refundable.
(b) An applicant for a new license or a renewal shall submit
$150 with the application, of which $120 shall be apportioned to
the State Police Firearm Services Fund, $20 shall be apportioned
to the Mental Health Reporting Fund, and $10 shall be
apportioned to the State Crime Laboratory Fund.
(c) A non-resident applicant for a new license or renewal
shall submit $300 with the application, of which $250 shall be
apportioned to the State Police Firearm Services Fund, $40 shall
be apportioned to the Mental Health Reporting Fund, and $10
shall be apportioned to the State Crime Laboratory Fund.
(d) A licensee requesting a new license in accordance with
Section 55 shall submit $75, of which $60 shall be apportioned
to the State Police Firearm Services Fund, $5 shall be
apportioned to the Mental Health Reporting Fund, and $10 shall
be apportioned to the State Crime Laboratory Fund.
(Source: P.A. 98-63, eff. 7-9-13.)

(430 ILCS 66/65)
Sec. 65. Prohibited areas.
(a) A licensee under this Act shall not knowingly carry a
firearm on or into:
(1) Any building, real property, and parking area
under the control of a public or private elementary or
secondary school.
(2) Any building, real property, and parking area
under the control of a pre-school or child care facility,
including any room or portion of a building under the
control of a pre-school or child care facility. Nothing in
this paragraph shall prevent the operator of a child care
facility in a family home from owning or possessing a
firearm in the home or license under this Act, if no child
under child care at the home is present in the home or the
firearm in the home is stored in a locked container when a
child under child care at the home is present in the home.
(3) Any building, parking area, or portion of a
building under the control of an officer of the executive
or legislative branch of government, provided that nothing
in this paragraph shall prohibit a licensee from carrying a
concealed firearm onto the real property, bikeway, or trail
in a park regulated by the Department of Natural Resources
or any other designated public hunting area or building
where firearm possession is permitted as established by the
Department of Natural Resources under Section 1.8 of the
Wildlife Code.
(4) Any building designated for matters before a
circuit court, appellate court, or the Supreme Court, or
any building or portion of a building under the control of
the Supreme Court.
(5) Any building or portion of a building under the
control of a unit of local government.
(6) Any building, real property, and parking area
under the control of an adult or juvenile detention or
correctional institution, prison, or jail.
(7) Any building, real property, and parking area
under the control of a public or private hospital or
hospital affiliate, mental health facility, or nursing
home.
(8) Any bus, train, or form of transportation paid
for in whole or in part with public funds, and any
building, real property, and parking area under the control
of a public transportation facility paid for in whole or in
part with public funds.
(9) Any building, real property, and parking area
under the control of an establishment that serves alcohol
on its premises, if more than 50% of the establishment's
gross receipts within the prior 3 months is from the sale
of alcohol. The owner of an establishment who knowingly
fails to prohibit concealed firearms on its premises as
provided in this paragraph or who knowingly makes a false
statement or record to avoid the prohibition on concealed
firearms under this paragraph is subject to the penalty
under subsection (c-5) of Section 10-1 of the Liquor
Control Act of 1934.

(10) Any public gathering or special event conducted
on property open to the public that requires the issuance
of a permit from the unit of local government, provided
this prohibition shall not apply to a licensee who must
walk through a public gathering in order to access his or
her residence, place of business, or vehicle.
(11) Any building or real property that has been
issued a Special Event Retailer's license as defined in
Section 1-3.17.1 of the Liquor Control Act during the time
designated for the sale of alcohol by the Special Event
Retailer's license, or a Special use permit license as
defined in subsection (q) of Section 5-1 of the Liquor
Control Act during the time designated for the sale of
alcohol by the Special use permit license.
(12) Any public playground.
(13) Any public park, athletic area, or athletic
facility under the control of a municipality or park
district, provided nothing in this Section shall prohibit a
licensee from carrying a concealed firearm while on a trail
or bikeway if only a portion of the trail or bikeway
includes a public park.
(14) Any real property under the control of the Cook
County Forest Preserve District.
(15) Any building, classroom, laboratory, medical
clinic,
hospital,
artistic
venue,
athletic
venue,
entertainment venue, officially recognized universityrelated organization property, whether owned or leased, and
any real property, including parking areas, sidewalks, and
common areas under the control of a public or private
community college, college, or university.
(16) Any building, real property, or parking area
under the control of a gaming facility licensed under the
Illinois Gambling Act or the Illinois Horse Racing Act of
1975, including an inter-track wagering location licensee.
(17) Any stadium, arena, or the real property or
parking area under the control of a stadium, arena, or any
collegiate or professional sporting event.
(18) Any building, real property, or parking area
under the control of a public library.
(19) Any building, real property, or parking area
under the control of an airport.
(20) Any building, real property, or parking area
under the control of an amusement park.
(21) Any building, real property, or parking area
under the control of a zoo or museum.
(22) Any street, driveway, parking area, property,
building, or facility, owned, leased, controlled, or used
by a nuclear energy, storage, weapons, or development site
or facility regulated by the federal Nuclear Regulatory
Commission. The licensee shall not under any circumstance
store a firearm or ammunition in his or her vehicle or in a
compartment or container within a vehicle located anywhere
in or on the street, driveway, parking area, property,
building, or facility described in this paragraph.
(23) Any area where firearms are prohibited under
federal law.

(a-5) Nothing in this Act shall prohibit a public or private
community college, college, or university from:
(1) prohibiting persons from carrying a firearm
within a vehicle owned, leased, or controlled by the
college or university;
(2) developing resolutions, regulations, or policies
regarding student, employee, or visitor misconduct and
discipline, including suspension and expulsion;
(3) developing resolutions, regulations, or policies
regarding the storage or maintenance of firearms, which
must include designated areas where persons can park
vehicles that carry firearms; and
(4) permitting the carrying or use of firearms for
the purpose of instruction and curriculum of officially
recognized programs, including but not limited to military
science and law enforcement training programs, or in any
designated area used for hunting purposes or target
shooting.
(a-10) The owner of private real property of any type may
prohibit the carrying of concealed firearms on the property
under his or her control. The owner must post a sign in
accordance with subsection (d) of this Section indicating that
firearms are prohibited on the property, unless the property is
a private residence.
(b) Notwithstanding subsections (a), (a-5), and (a-10) of
this Section except under paragraph (22) or (23) of subsection
(a), any licensee prohibited from carrying a concealed firearm
into the parking area of a prohibited location specified in
subsection (a), (a-5), or (a-10) of this Section shall be
permitted to carry a concealed firearm on or about his or her
person within a vehicle into the parking area and may store a
firearm or ammunition concealed in a case within a locked
vehicle or locked container out of plain view within the vehicle
in the parking area. A licensee may carry a concealed firearm in
the immediate area surrounding his or her vehicle within a
prohibited parking lot area only for the limited purpose of
storing or retrieving a firearm within the vehicle's trunk. For
purposes of this subsection, "case" includes a glove compartment
or console that completely encloses the concealed firearm or
ammunition, the trunk of the vehicle, or a firearm carrying box,
shipping box, or other container.
(c) A licensee shall not be in violation of this Section
while he or she is traveling along a public right of way that
touches or crosses any of the premises under subsection (a), (a5), or (a-10) of this Section if the concealed firearm is
carried on his or her person in accordance with the provisions
of this Act or is being transported in a vehicle by the licensee
in accordance with all other applicable provisions of law.
(d) Signs stating that the carrying of firearms is
prohibited shall be clearly and conspicuously posted at the
entrance of a building, premises, or real property specified in
this Section as a prohibited area, unless the building or
premises is a private residence. Signs shall be of a uniform
design as established by the Department and shall be 4 inches by
6 inches in size. The Department shall adopt rules for
standardized signs to be used under this subsection.
(Source: P.A. 101-31, eff. 6-28-19.)

(430 ILCS 66/70)
Sec. 70. Violations.
(a) A license issued or renewed under this Act shall be
revoked if, at any time, the licensee is found to be ineligible
for a license under this Act or the licensee no longer meets the
eligibility requirements of the Firearm Owners Identification
Card Act.
(b) A license shall be suspended if an order of protection,
including an emergency order of protection, plenary order of
protection, or interim order of protection under Article 112A of
the Code of Criminal Procedure of 1963 or under the Illinois
Domestic Violence Act of 1986, or if a firearms restraining
order, including an emergency firearms restraining order, under
the Firearms Restraining Order Act, is issued against a licensee
for the duration of the order, or if the Department is made
aware of a similar order issued against the licensee in any
other jurisdiction. If an order of protection is issued against
a licensee, the licensee shall surrender the license, as
applicable, to the court at the time the order is entered or to
the law enforcement agency or entity serving process at the time
the licensee is served the order. The court, law enforcement
agency, or entity responsible for serving the order of
protection shall notify the Department within 7 days and
transmit the license to the Department.
(c) A license is invalid upon expiration of the license,
unless the licensee has submitted an application to renew the
license, and the applicant is otherwise eligible to possess a
license under this Act.
(d) A licensee shall not carry a concealed firearm while
under
the
influence
of
alcohol,
other
drug
or
drugs,
intoxicating compound or combination of compounds, or any
combination thereof, under the standards set forth in subsection
(a) of Section 11-501 of the Illinois Vehicle Code.
A licensee in violation of this subsection (d) shall be
guilty of a Class A misdemeanor for a first or second violation
and a Class 4 felony for a third violation. The Department may
suspend a license for up to 6 months for a second violation and
shall permanently revoke a license for a third violation.
(e) Except as otherwise provided, a licensee in violation of
this Act shall be guilty of a Class B misdemeanor. A second or
subsequent violation is a Class A misdemeanor. The Department
may suspend a license for up to 6 months for a second violation
and shall permanently revoke a license for 3 or more violations
of Section 65 of this Act. Any person convicted of a violation
under this Section shall pay a $150 fee to be deposited into the
Mental Health Reporting Fund, plus any applicable court costs or
fees.
(f) A licensee convicted or found guilty of a violation of
this Act who has a valid license and is otherwise eligible to
carry a concealed firearm shall only be subject to the penalties
under this Section and shall not be subject to the penalties
under Section 21-6, paragraph (4), (8), or (10) of subsection
(a) of Section 24-1, or subparagraph (A-5) or (B-5) of paragraph
(3) of subsection (a) of Section 24-1.6 of the Criminal Code of
2012. Except as otherwise provided in this subsection, nothing

in this subsection prohibits the licensee from being subjected
to penalties for violations other than those specified in this
Act.
(g) A licensee whose license is revoked, suspended, or
denied shall, within 48 hours of receiving notice of the
revocation, suspension, or denial, surrender his or her
concealed carry license to the local law enforcement agency
where the person resides. The local law enforcement agency shall
provide the licensee a receipt and transmit the concealed carry
license to the Department of State Police. If the licensee whose
concealed carry license has been revoked, suspended, or denied
fails to comply with the requirements of this subsection, the
law enforcement agency where the person resides may petition the
circuit court to issue a warrant to search for and seize the
concealed carry license in the possession and under the custody
or control of the licensee whose concealed carry license has
been revoked, suspended, or denied. The observation of a
concealed carry license in the possession of a person whose
license has been revoked, suspended, or denied constitutes a
sufficient basis for the arrest of that person for violation of
this subsection. A violation of this subsection is a Class A
misdemeanor.
(h) A license issued or renewed under this Act shall be
revoked if, at any time, the licensee is found ineligible for a
Firearm Owner's Identification Card, or the licensee no longer
possesses a valid Firearm Owner's Identification Card. A
licensee whose license is revoked under this subsection (h)
shall surrender his or her concealed carry license as provided
for in subsection (g) of this Section.
This subsection shall not apply to a person who has filed an
application with the State Police for renewal of a Firearm
Owner's Identification Card and who is not otherwise ineligible
to obtain a Firearm Owner's Identification Card.
(i) A certified firearms instructor who knowingly provides
or offers to provide a false certification that an applicant has
completed firearms training as required under this Act is guilty
of a Class A misdemeanor. A person guilty of a violation of this
subsection (i) is not eligible for court supervision. The
Department shall permanently revoke the firearms instructor
certification of a person convicted under this subsection (i).
(Source: P.A. 100-607, eff. 1-1-19.)
(430 ILCS 66/75)
Sec. 75. Applicant firearm training.
(a) Within 60 days of the effective date of this Act, the
Department shall begin approval of firearm training courses and
shall make a list of approved courses available on the
Department's website.
(b) An applicant for a new license shall provide proof of
completion of a firearms training course or combination of
courses approved by the Department of at least 16 hours, which
includes range qualification time under subsection (c) of this
Section, that covers the following:
(1) firearm safety;
(2) the basic principles of marksmanship;
(3) care, cleaning, loading, and unloading of a

concealable firearm;
(4) all applicable State and federal laws relating to
the ownership, storage, carry, and transportation of a
firearm; and
(5) instruction on the appropriate and lawful
interaction with law enforcement while transporting or
carrying a concealed firearm.
(c) An applicant for a new license shall provide proof of
certification by a certified instructor that the applicant
passed a live fire exercise with a concealable firearm
consisting of:
(1) a minimum of 30 rounds; and
(2) 10 rounds from a distance of 5 yards; 10 rounds
from a distance of 7 yards; and 10 rounds from a distance
of 10 yards at a B-27 silhouette target approved by the
Department.
(d) An applicant for renewal of a license shall provide
proof of completion of a firearms training course or combination
of courses approved by the Department of at least 3 hours.
(e) A certificate of completion for an applicant's firearm
training course shall not be issued to a student who:
(1) does not follow the orders of the certified
firearms instructor;
(2) in the judgment of the certified instructor,
handles a firearm in a manner that poses a danger to the
student or to others; or
(3) during the range firing portion of testing fails
to hit the target with 70% of the rounds fired.
(f) An instructor shall maintain a record of each student's
performance for at least 5 years, and shall make all records
available upon demand of authorized personnel of the Department.
(g) The Department and certified firearms instructors shall
recognize up to 8 hours of training already completed toward the
16 hour training requirement under this Section if the training
course is submitted to and approved by the Department. Any
remaining hours that the applicant completes must at least cover
the classroom subject matter of paragraph (4) of subsection (b)
of this Section, and the range qualification in subsection (c)
of this Section.
(h) A person who has qualified to carry a firearm as an
active law enforcement or corrections officer, who has
successfully completed firearms training as required by his or
her law enforcement agency and is authorized by his or her
agency to carry a firearm; a person currently certified as a
firearms instructor by this Act or by the Illinois Law
Enforcement Training Standards Board; or a person who has
completed the required training and has been issued a firearm
control card by the Department of Financial and Professional
Regulation shall be exempt from the requirements of this
Section.
(i) The Department and certified firearms instructors shall
recognize 8 hours of training as completed toward the 16 hour
training requirement under this Section, if the applicant is an
active, retired, or honorably discharged member of the United
States Armed Forces. Any remaining hours that the applicant
completes must at least cover the classroom subject matter of

paragraph (4) of subsection (b) of this Section, and the range
qualification in subsection (c) of this Section.
(j) The Department and certified firearms instructors shall
recognize up to 8 hours of training already completed toward the
16 hour training requirement under this Section if the training
course is approved by the Department and was completed in
connection with the applicant's previous employment as a law
enforcement or corrections officer. Any remaining hours that the
applicant completes must at least cover the classroom subject
matter of paragraph (4) of subsection (b) of this Section, and
the range qualification in subsection (c) of this Section. A
former law enforcement or corrections officer seeking credit
under this subsection (j) shall provide evidence that he or she
separated from employment in good standing from each law
enforcement agency where he or she was employed. An applicant
who was discharged from a law enforcement agency for misconduct
or disciplinary reasons is not eligible for credit under this
subsection (j).
(Source: P.A. 98-63, eff. 7-9-13; 98-600, eff. 12-6-13.)
(430 ILCS 66/80)
Sec. 80. Certified firearms instructors.
(a) Within 60 days of the effective date of this Act, the
Department
shall
begin
approval
of
certified
firearms
instructors and enter certified firearms instructors into an
online registry on the Department's website.
(b) A person who is not a certified firearms instructor
shall not teach applicant training courses or advertise or
otherwise represent courses they teach as qualifying their
students to meet the requirements to receive a license under
this Act. Each violation of this subsection is a business
offense with a fine of at least $1,000 per violation.
(c) A person seeking to become a certified firearms
instructor shall:
(1) be at least 21 years of age;
(2) be a legal resident of the United States; and
(3) meet the requirements of Section 25 of this Act,
except for the Illinois residency requirement in item (xiv)
of paragraph (2) of subsection (a) of Section 4 of the
Firearm Owners Identification Card Act; and any additional
uniformly
applied
requirements
established
by
the
Department.
(d) A person seeking to become a certified firearms
instructor, in addition to the requirements of subsection (c) of
this Section, shall:
(1) possess a high school diploma or high school
equivalency certificate; and
(2) have at least one of the following valid firearms
instructor certifications:
(A) certification from a law enforcement agency;
(B) certification from a firearm instructor
course offered by a State or federal governmental
agency;
(C) certification from a firearm instructor
qualification course offered by the Illinois Law
Enforcement Training Standards Board; or

(D) certification from an entity approved by the
Department that offers firearm instructor education and
training in the use and safety of firearms.
(e) A person may have his or her firearms instructor
certification denied or revoked if he or she does not meet the
requirements to obtain a license under this Act, provides false
or misleading information to the Department, or has had a prior
instructor certification revoked or denied by the Department.
(Source: P.A. 98-63, eff. 7-9-13; 98-600, eff. 12-6-13; 98-718,
eff. 1-1-15.)
(430 ILCS 66/85)
Sec. 85. Background checks for sales. A license to carry a
concealed firearm issued by this State shall not exempt the
licensee from the requirements of a background check, including
a check of the National Instant Criminal Background Check
System, upon purchase or transfer of a firearm.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/87)
Sec. 87. Administrative and judicial review.
(a) Whenever an application for a concealed carry license is
denied, whenever the Department fails to act on an application
within 90 days of its receipt, or whenever a license is revoked
or suspended as provided in this Act, the aggrieved party may
appeal to the Director for a hearing upon the denial,
revocation, suspension, or failure to act on the application,
unless the denial was made by the Concealed Carry Licensing
Review Board, in which case the aggrieved party may petition the
circuit court in writing in the county of his or her residence
for a hearing upon the denial.
(b) All final administrative decisions of the Department or
the Concealed Carry Licensing Review Board under this Act shall
be subject to judicial review under the provisions of the
Administrative Review Law. The term "administrative decision" is
defined as in Section 3-101 of the Code of Civil Procedure.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/90)
Sec. 90. Preemption. The regulation, licensing, possession,
registration, and transportation of handguns and ammunition for
handguns by licensees are exclusive powers and functions of the
State. Any ordinance or regulation, or portion thereof, enacted
on or before the effective date of this Act that purports to
impose regulations or restrictions on licensees or handguns and
ammunition for handguns in a manner inconsistent with this Act
shall be invalid in its application to licensees under this Act
on the effective date of this Act. This Section is a denial and
limitation of home rule powers and functions under subsection
(h) of Section 6 of Article VII of the Illinois Constitution.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/92)
Sec. 92. (Repealed).
(Source: P.A. 98-63, eff. 7-9-13. Repealed internally, eff. 3-214.)

(430 ILCS 66/95)
Sec. 95. Procurement; rulemaking.
(a) The Department of State Police, in consultation with and
subject to the approval of the Chief Procurement Officer, may
procure a single contract or multiple contracts to implement the
provisions of this Act. A contract or contracts under this
paragraph are not subject to the provisions of the Illinois
Procurement Code, except for Sections 20-60, 20-65, 20-70, and
20-160 and Article 50 of that Code, provided that the Chief
Procurement Officer may, in writing with justification, waive
any certification required under Article 50. This exemption
shall be repealed one year from the effective date of this Act.
(b) The Department shall adopt rules to implement the
provisions of this Act. The Department may adopt rules necessary
to implement the provisions of this Act through the use of
emergency rulemaking in accordance with Section 5-45 of the
Illinois Administrative Procedure Act for a period not to exceed
180 days after the effective date of this Act.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/100)
Sec. 100. Short title. Sections 100 through 110 may be cited
as the School Administrator Reporting of Mental Health Clear and
Present Danger Determinations Law.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/105)
Sec. 105. Duty of school administrator. It is the duty of
the principal of a public elementary or secondary school, or his
or her designee, and the chief administrative officer of a
private elementary or secondary school or a public or private
community college, college, or university, or his or her
designee, to report to the Department of State Police when a
student is determined to pose a clear and present danger to
himself, herself, or to others, within 24 hours of the
determination as provided in Section 6-103.3 of the Mental
Health and Developmental Disabilities Code. "Clear and present
danger" has the meaning as provided in paragraph (2) of the
definition of "clear and present danger" in Section 1.1 of the
Firearm Owners Identification Card Act.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/110)
Sec. 110. Immunity. A principal or chief administrative
officer, or the designee of a principal or chief administrative
officer, making the determination and reporting under Section
105 of this Law shall not be held criminally, civilly, or
professionally liable, except for willful or wanton misconduct.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/115)
Sec. 115. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)

(430 ILCS 66/120)
Sec. 120. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/122)
Sec. 122. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/125)
Sec. 125. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/130)
Sec. 130. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/135)
Sec. 135. The State Finance Act is amended by repealing
Section 5.206.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/140)
Sec. 140. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/142)
Sec. 142. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/145)
Sec. 145. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/150)
Sec. 150. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/155)
Sec. 155. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/160)
Sec. 160. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/165)
Sec. 165. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)
(430 ILCS 66/170)
Sec. 170. (Amendatory provisions; text omitted).
(Source: P.A. 98-63, eff. 7-9-13; text omitted.)

(430 ILCS 66/195)
Sec. 195. No acceleration or delay. Where this Act makes
changes in a statute that is represented in this Act by text
that is not yet or no longer in effect (for example, a Section
represented by multiple versions), the use of that text does not
accelerate or delay the taking effect of (i) the changes made by
this Act or (ii) provisions derived from any other Public Act.
(Source: P.A. 98-63, eff. 7-9-13.)
(430 ILCS 66/999)
Sec. 999. Effective date. This
becoming law.
(Source: P.A. 98-63, eff. 7-9-13.)

Act

takes

effect

upon

